No. 20-1530, 20-1531, 20-1778, and 20-1780
IN THE

Supreme Court of the United States
State of WEST VIRGINIA, et al.,
Petitioners,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
THE NORTH AMERICAN COAL CORPORATION,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
WESTMORELAND MINING HOLDINGS LLC,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
State of NORTH DAKOTA,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that, on July 28,
2021, I caused to be served (i) three paper copies of the accompanying Brief for
States and Municipalities in Opposition by overnight delivery by commercial carrier
in compliance with U.S. Supreme Court Rule 29.3 and (ii) one portable document
format copy by electronic mail to the addresses listed below:
(Remainder of page blank)

Service List
Counsel for Petitioners State of West Virginia, et al.
Lindsay See
Office of the West Virginia Attorney General
1900 Kanawha Blvd E, Bldg 1 Rm 26E
Charleston, WV 25305
lindsay.s.see@wvago.gov
304-558-2021
Counsel for Petitioner State of North Dakota
Paul Seby
Greenberg Traurig LLP
1144 15th Street, Suite 3300
Denver, CO 80202
sebyp@gtlaw.com
303-572-6500
Counsel for Petitioner Westmoreland Mining Holdings LLC
Andrew Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W., Ste. 1100
Washington, DC 20036
agrossman@bakerlaw.com
202-861-1697
Counsel for Petitioner North American Coal Corporation
Jacob Roth
Jones Day
51 Louisiana Avenue NW
Washington, DC 20001
yroth@jonesday.com
202-879-3939
Counsel for Respondents Environmental Protection Agency, et al.
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
2

Counsel for Respondents Consolidated Edison, Inc., et al.
Beth Brinkmann
Covington & Burling LLP
850 Tenth Street, NW
Washington, DC 20001-4956
bbrinkmann@cov.com
202-662-5312
Counsel for Respondents Non-Governmental Organizations and Trade Associations
Sean Donahue
Donahue, Goldberg & Littleton
1008 Pennsylvania Avenue, SE
Washington, DC 20003
sean@donahuegoldberg.com
202-277-7085
Counsel for Respondent Basin Electric Power Cooperative
Emily Schilling
Holland & Hart LLP
901 K Street NW Suite 850
Washington, DC 20001
ecschilling@hollandhart.com
202-393-6500
Counsel for Respondent America’s Power
Elbert Lin
Hunton Andrews Kurth LLP
Riverfront Plaza, East Tower
951 E. Byrd Street
Richmond, VA 23219-4074
elin@HuntonAK.com
804-788-7202
Counsel for Respondent National Mining Association
Misha Tseytlin
Troutman Pepper Hamilton Sanders LLP
227 W. Monroe St., Suite 3900
Chicago, IL 60606
misha.tseytlin@troutman.com
(608) 999-1240

3

Executed August 5, 2021
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

4

